WAIVEI!

Supreme Court, U.S.
FILED

SEP 1 7 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-390

Christopher Everson

Theresa Lantz, et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
,

Signature:

Zigitally signed by Carolyn Ennis, Assistant Attorney General
Carolyn Ennis, Assistant Attorney Generar
.07:a ate: 2021.09.17 14:58:17 -04'00'

Date:

9/17/21

(Type or print) Name Carolyn Ennis
0 Mr.

Ms.

0 Mrs.

0 Miss

Firm

Office of the Attorney General - State of Connecticut

Address

165 Capitol Avenue

City & State

Hartford, CT

Phone

860-808-5340

Zip 06106
Email carolyn.ennis@ct.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Christopher Everson, pro se
5124 Townwalk Drive
Hamden, CT 06518

